APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (March 18, 2021) ....................... 1a
District Court of McIntosh County, State of Oklahoma, Journal Entry of Facts and Conclusions of
Law in Accordance with Order Remanding for
Evidentiary Hearing (October 2, 2020) ................. 10a
Supplemental Stipulation
(September 29, 2020)........................................ 13a
Order of the Court of Criminal Appeals, State of
Oklahoma, Remanding for Evidentiary Hearing
(August 19, 2020) .................................................... 18a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(MARCH 18, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
WILLIAM CLAYTON BROWN,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.
________________________
NOT FOR PUBLICATION
Case No. C-2018-1118
Before: Dana KUEHN, President Judge.,
Scott ROWLAND, Vice President Judge.,
Gary L. LUMPKIN, Judge., David B. LEWIS,
Judge., Robert L. HUDSON, Judge.
OPINION
ROWLAND, VICE PRESIDING JUDGE:
William Clayton Brown entered a guilty plea in
the District Court of McIntosh County, Case No. CF2017-257, to First Degree Manslaughter, in violation
of 21 O.S.2011, § 711. On October 2, 2018, the Honorable James D. Bland, District Judge, accepted Brown’s

App.2a
guilty plea and sentenced Brown to life with the
possibility of parole. Brown filed a timely motion to
withdraw his guilty plea. After a hearing on the motion
to withdraw held on October 25, 2018, the motion
was denied. Brown appeals the denial of this motion,
raising the following issues:
(1) whether the State of Oklahoma had jurisdiction to prosecute him;
(2) whether his plea was entered as a result of
coercion, duress, and pressure from the district attorney;
(3) whether his plea was knowingly, voluntarily,
and intelligently entered;
(4) whether he received effective assistance of
counsel;
(5) whether he should be allowed to withdraw
his plea because he had a valid defense; and,
(6) whether an accumulation of errors deprived
him of a fair trial.
We find relief is required on Brown’s jurisdictional
challenge in Proposition 1, rendering his other claims
moot. Brown claims the State of Oklahoma did not
have jurisdiction to prosecute him. He relies on 18
U.S.C. § 1153 and McGirt v. Oklahoma, 591 U.S., 140
S. Ct. 2452 (2020).
On August 19, 2020, this Court remanded this
case to the District Court of McIntosh County for an
evidentiary hearing. We directed the District Court
to make findings of fact and conclusions of law on
two issues: (a) Brown’s status as an Indian; and, (b)
whether the crime occurred within the boundaries of

App.3a
the Muscogee Creek Reservation. Our order provided
that if the parties agreed as to what the evidence
would show with regard to the questions presented,
the parties could enter into a written stipulation
setting forth those facts, and no hearing would be
necessary.
On September 24, 2020, the parties appeared
before the Honorable Mike Hogan for a status conference. On September 29, 2020, the parties filed a
written Supplemental Stipulation in which they
agreed: (1) that Brown has some Indian blood; (2)
that he was a recognized member of the Choctaw
Nation on the date of the charged offense; (3) that
the Choctaw Nation is a federally recognized tribe;
and, (4) that the charged crime occurred within the
Muscogee Creek Reservation.
The District Court accepted the parties’ stipulation
and on October 2, 2020, filed its Findings of Fact and
Conclusions of Law. The District Court found the
facts recited above in accordance with the stipulation.
The District Court concluded that Brown is an Indian
under federal law and that the charged crimes occurred
within the boundaries of the Muscogee Creek Reservation. The District Court’s findings are supported by
the record. The ruling in McGirt governs this case
and requires us to find the District Court of McIntosh
County did not have jurisdiction to prosecute Brown.
Accordingly, we grant relief on error raised in Proposition 1.
DECISION
The Judgment and Sentence of the district court
is VACATED and the matter is REMANDED
WITH INSTRUCTIONS TO DISMISS. Pursuant

App.4a
to Rule 3.15, Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch. 18, App. (2021), the MANDATE
is ORDERED to issue in twenty (20) days from
the delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT OF
MCINTOSH COUNTY, THE HONORABLE
JAMES D. BLAND, DISTRICT JUDGE
APPEARANCE AT PLEA HEARING
Cynthia Viol
Oklahoma Indigent Defense System
Po Box 926
Norman, OK 73070
Attorney for Defendant
APPEARANCES ON APPEAL AND REMAND
Virginia Sanders
Oklahoma Indigent Defense System
PO Box 926
Norman, OK 73070
Attorney for Petitioner
APPEARANCE ON MOTION TO WITHDRAW
Max E. Moss, Jr.
Moss Law Office
105 West Main Street
Stigler, OK 74462
Attorney for Defendant
David K. Pierce
Assistant District Attorney
110 North 1st Street
Eufaula, OK 74432
Attorney for State at Both Hearings

App.5a
Mike Hunter
Attorney General of Oklahoma
Joshua Fanelli
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Attorneys for State
Carol Iksi
Greg Stidham
Asst. District Attorney
110 North 1st Street
Eufaula, OK 74432
Attorney for State

App.6a
LUMPKIN, JUDGE:
CONCURRING IN RESULTS
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at
a minimum concur in the results of this opinion.
While our nation’s judicial structure requires me to
apply the majority opinion in the 5-4 decision of the
U.S. Supreme Court in McGirt v. Oklahoma, ___ U.S.
___, 140 S. Ct. 2452 (2020), I do so reluctantly. Upon
the first reading of the majority opinion in McGirt I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents, but
had cherry picked statutes and treaties, without giving
historical context to them. The Majority then proceeded to do what an average citizen who had been
fully informed of the law and facts as set out in the
dissents would view as an exercise of raw judicial
power to reach a decision which contravened not only
the history leading to the disestablishment of the
Indian reservations in Oklahoma, but also willfully
disregarded and failed to apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me
to resist unlawful orders. Chief Justice Roberts’
scholarly and judicially penned dissent, actually
following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to

App.7a
follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.1
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established
over the last 100 years or more.
1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community
without you would go and buy land and put them on
it. Then they would be surrounded very likely with
thickly populated white section with whom they
would trade and associate. I just cannot get through
my mind how this bill can possibly be made to operate
in a State of thickly-settled population. (emphasis
added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February
27, 1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could
look forward to building up huge reservations such as we have
granted to the Indians in the past.” Id. at 157. In 1940, in the
Foreword to Felix S. Cohen, Handbook of Federal Indian Law
(1942), Secretary of the Interior Harold Ickes wrote in support
of the IRA, “[t]he continued application of the allotment laws,
under which Indian wards have lost more than two-thirds of
their reservation lands, while the costs of Federal administration of these lands have steadily mounted, must be terminated.”
(emphasis added).

App.8a
The question I see presented is should I blindly
follow and apply the majority opinion or do I join
with Chief Justice Roberts and the dissenters in
McGirt and recognize “the emperor has no clothes” as
to the adherence to following the rule of law in the
application of the McGirt decision?
My oath and adherence to the Federal-State
relationship under the U.S. Constitution mandate
that I fulfill my duties and apply the edict of the
majority opinion in McGirt. However, I am not required
to do so blindly and without noting the flaws of the
opinion as set out in the dissents. Chief Justice
Roberts and Justice Thomas eloquently show the
Majority’s mischaracterization of Congress’s actions
and history with the Indian reservations. Their dissents
further demonstrate that at the time of Oklahoma
Statehood in 1907, all parties accepted the fact that
Indian reservations in the state had been disestablished
and no longer existed. I take this position to adhere
to my oath as a judge and lawyer without any
disrespect to our Federal-State structure. I simply
believe that when reasonable minds differ they must
both be reviewing the totality of the law and facts.

App.9a
HUDSON, JUDGE: SPECIALLY CONCURS
Today’s decision dismisses a conviction for first
degree manslaughter from the District Court of
McIntosh County based on the Supreme Court’s decision in McGirt v. Oklahoma, 140 S. Ct. 2452 (2020).
This decision is unquestionably correct as a matter of
stare decisis based on the Indian status of Petitioner
and the occurrence of this crime on the Creek Reservation. Under McGirt, the State has no jurisdiction to
prosecute Petitioner for the manslaughter in this case.
Instead, Petitioner must be prosecuted in federal
court. I therefore as a matter of stare decisis fully
concur in today’s decision. Further, I maintain my
previously expressed views on the significance of
McGirt, its far-reaching impact on the criminal
justice system in Oklahoma and the need for a practical
solution by Congress. See Bosse v. State, 2021 OK CR
3, ___ P.3d ___ (Hudson, J., Concur in Results);
Hogner v. State, 2021 OK CR 4, ___ P.3d ___,
(Hudson, J., Specially Concurs); and Krafft v. State,
No. F-2018-340 (Okl. Cr., Feb. 25, 2021) (Hudson,
J., Specially Concurs) (unpublished).

App.10a

DISTRICT COURT OF MCINTOSH COUNTY,
STATE OF OKLAHOMA, JOURNAL ENTRY OF
FACTS AND CONCLUSIONS OF LAW IN
ACCORDANCE WITH ORDER REMANDING
FOR EVIDENTIARY HEARING
(OCTOBER 2, 2020)
IN THE DISTRICT COURT OF MCINTOSH
COUNTY STATE OF OKLAHOMA
________________________
STATE OF OKLAHOMA,
Plaintiff,
v.
WILLIAM CLAYTON BROWN,
Defendant.
________________________
Case No. CF-2017-257
Court of Criminal Appeal Number
F-2018-1118
Before: Michael HOGAN,
District Judge McIntosh County State of Oklahoma.
Now on the 24th day of September, 2020, this case
comes on for evidentiary hearing for the purpose of
determining the following: (a) Defendant’s Indian
status and (b) whether the crimes occurred on the
Creek Reservation. The Defendant did not appear,
but appeared through counsel, Virginia Sanders. The

App.11a
State appears by and through McIntosh County District Attorney, Carol Iski, and assistant district attorney, Greg Stidham. The Oklahoma Attorney General’s
Office appears by and through counsel, Joshua R.
Fanelli.
After receiving argument and evidentiary stipulations the Court hereby FINDS and ORDERS as follows:
FINDINGS OF FACT AND
CONCLUSION OF LAW
The first issue for adjudication is the Defendant’s
status as an Indian as defined by federal law. The
Tenth Circuit’s decision in United States v. Diaz, 679
F.3d 1183 (10th Cir. 2012) articulates the test for
making such determination. As Diaz states:
To find that a person is an Indian the court
must first make factual findings that the
person has some Indian blood and, second,
that the person is recognized as an Indian
by a tribe or by the federal government.
Id. at 1187 (internal quotations omitted); see also
Goforth v. State, 1982 OK CR 48, 644 P.2d 114. Applied
to the present matter, the parties jointly stipulate
in writing the evidence will show “the Defendant,
William Brown is 9/128-degree Indian blood of the
Choctaw Nation Tribe.” See Joint Exhibit 1 (attached).
In addition, “Defendant Brown was an enrolled member of the Choctaw Nation Tribe of Oklahoma on the
dates of the charged offenses.” Id. Finally, “[t]he
Choctaw Nation Tribe of Oklahoma is an Indian Tribal
Entity recognized by the federal government.” Id.
The Court accepts and attaches these stipulations to
the Court’s Findings of Facts and Conclusions of

App.12a
Law. Applying the elements of Diaz to the evidentiary stipulations in the present matter, the Court finds
the Defendant has “some Indian blood” and is also
“recognized as an Indian by a tribe and the federal
government.” For this reason, the Court finds the
Defendant is an Indian under federal law.
Having found the Defendant is an Indian under
federal law, this Court must now determine if the
crime occurred on the Creek Reservation. As McGirt
v. Oklahoma, 140 S. Ct. 2452, 207 L.Ed.2d 985 (2020)
explains “[t]he 1833 Treaty fixed borders for what
was to be a ‘permanent home to the whole Creek
nation of Indians.’” Id. at 2461. The parties in this
matter stipulate “[t]he charged crimes occurred within
the Creek Reservation.” For this reason, the Court
adopts the stipulation and finds the crime occurred
on the Creek Reservation.
In accordance with the directives of the Oklahoma
Court of Criminal Appeals, the court reporter shall
file an original and two certified copies of the transcript
of this hearing within (20) days. This District Court
Clerk shall transmit the record of the evidentiary
hearing, this Journal Entry of Findings of Facts and
Conclusions of Law with attachments, and the
transcript of this proceeding to the Clerk of the Court
of Criminal Appeals.
BE IT SO ORDERED
/s/ Michael Hogan
District Judge McIntosh County
State of Oklahoma

App.13a
SUPPLEMENTAL STIPULATION
(SEPTEMBER 29, 2020)
IN THE DISTRICT COURT OF MCINTOSH
COUNTY STATE OF OKLAHOMA
________________________
WILLIAM CLAYTON BROWN,
Defendant/Petitioner,
v.
THE STATE OF OKLAHOMA,
Plaintiff/Respondent.
________________________
McIntosh County District Court
Case No. CF-2017-257
Court of Criminal Appeal Number
C-2018-1118
SUPPLEMENTAL STIPULATION
This case is before the Court pursuant to an Order
Remanding for Evidentiary Hearing from the Oklahoma Court of Criminal Appeals, dated August 19,
2020. In that Order, the Court of Criminal Appeals
directed this Court to make findings of fact on two
issues: (1) whether the defendant, William Clayton
Brown, has “some Indian blood” and “is recognized as
an Indian by a tribe or the federal government” and
(2) whether the crime occurred within the boundaries
of the Muscogee Creek Reservation.

App.14a
In response to the two questions this Court has
been directed to answer, the parties have reached
the following stipulations:
1. As to the location of the crime, the parties
hereby stipulate and agree as follows:
a.

The crime in this case occurred at 1929 Quail
Drive, Eufaula, OK 74432, and the decedent
was found on Comanche Road, Eufaula,
OK 74432. Both addresses are within the
boundaries of the Muscogee Creek Nation–
boundaries established through a series of
treaties between the Muscogee Creek Nation
and the United States government.

b.

These boundaries have been explicitly recognized as establishing a reservation, as defined
by 18 U.S.C. f 1151(a), and reaffirmed by
the United States Supreme Court in McGirt
v. Oklahoma, ___ U.S. ___, 140 S. Ct. 2452,
207 L.Ed.2d 985 (2020).

2. As to the status of the defendant, the parties
hereby stipulate and agree as follows:
a.

The defendant, William Clayton Brown, has
9/128 Choctaw blood and was a recognized
member of the Choctaw Nation of Oklahoma
(Membership Number 209512) at the time
of the Crime. The Choctaw Nation of
Oklahoma is an Indian Tribal Entity recognized by the federal government. (Mr. Brown’s
verification of tribal membership in the
Choctaw Nation of Oklahoma is appended as
Exhibit 1.)

App.15a
3. In addition, included with this Supplemental
Stipulation, although not specifically part of the findings of fact remanded to this District Court by the
Oklahoma Court of Criminal Appeals, the parties hereby stipulate and agree as follows:
a.

The victim; Damion Rashaud Martin, had
9/128 Muscogee (Creek) blood and was a
recognized member of the Muscogee (Creek)
Nation (Membership Roll Number 56928) at
the time of this crime. The Muscogee (Creek)
Nation is an Indian Tribal Entity recognized
by the federal government. (Mr. Martin’s
verification of tribal membership in the
Muscogee (Creek) Nation is appended as
Exhibit 2.)
/s/ Virginia Sanders
Counsel for Defendant/Petitioner
/s/ Joshua Fanelli
Counsel for Plaintiff/Respondent
/s/ Carol Iski
Counsel for Plaintiff/Respondent

App.16a

PO Box 1210
Durant, Oklahoma 74702-1210
580-924-8280, Ext 4030
1-800-522-6170
To Whom It May Concern:
This letter is to certify that William Clayton
Brown, born on 5/16/1983, with social security number
XXX-XX-7499 has a Certificate of Degree of Indian
Blood (CDIB), Is 9/128 degree of Indian Blood of the
Choctaw/Chickasaw Tribe, and Is a Tribal Member of
the Choctaw Nation of Oklahoma (Membership #
CN209512). If you have any questions please, contact
this office at the number listed above.
Sincerely,
/s/ Terry Stephens
Terry Stephens
Director, CDIB/Membership
Choctaw Nation of Oklahoma

App.17a

MUSCOGEE (CREEK) NATION
ENROLLMENT VERIFICATION
Re: Name: Damion Rashaud Martin
Address: 208 J.C. Watts
Eufaula OK 74432
Birthdate: 12/26/1995
Enrollment Date: October 15, 1997
Roll Number: 56928
Degree of Creek Blood: 9/128
Deceased Date: 9/15/2017
I hereby certify that Damion Rashaud Martin,
DOB: 12/26/1995 Is enrolled with the Muscogee (Creek)
Nation. Enrollment Date: 10/15/1997 Roll Number.
56928, Degree of Creek Blood: 9/128.
I attest and certify that the above information is
a correct compilation of official records of the Muscogee
(Creek) Nation filed and recorded with the Muscogee
(Creek) Nation Citizenship Office, the public office
responsible for keeping records of enrolled citizens,
and that I am an authorized custodian of said records.
Executed this 25th day of September, 2020.
/s/ Nathan Wilson
Director
Muscogee (Creek) Nation
Citizenship Office

App.18a

ORDER OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA,
REMANDING FOR EVIDENTIARY HEARING
(AUGUST 19, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
WILLIAM CLAYTON BROWN,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.
________________________
Case No. C-2018-1118
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice President Judge.,
Gary L. LUMPKIN, Judge.,
Robert L. HUDSON, Judge.,
Scott ROWLAND, Judge.
William Clayton Brown entered a guilty plea in
the District Court of McIntosh County, Case No. CF2017-257, to First Degree Manslaughter, in violation
of 21 O.S.2011, § 711. On October 2, 2018, the Honorable James D. Bland, District Judge, accepted Brown’s
guilty plea and sentenced Brown to life with the
possibility of parole. Brown must serve 85% of his

App.19a
sentence before he is eligible for parole. Brown filed a
timely motion to withdraw his guilty plea. After a
hearing on the motion to withdraw held on October
25, 2018, the motion was denied. Brown appeals the
denial of this motion.
In Proposition 1 of his Brief-in-Chief and related
Application for Evidentiary Hearing on Sixth Amendment Claim, filed on April 12, 2019, Brown claims the
District Court lacked jurisdiction to try him. Brown
argues that he is a citizen of the Choctaw Nation and
the crime occurred within the boundaries of the
Muskogee (Creek) Reservation. Brown, in his certiorari appeal, relies on jurisdictional issues addressed
in Murphy v. Royal, 875 F.3d 896 (10th Cir. 2017),
which was affirmed by the United States Supreme
Court in Sharp v. Murphy, 591 U.S., 140 S. Ct. 2412
(2020) for the reasons stated in McGirt v. Oklahoma,
591 U.S., 140 S. Ct. 2452 (2020).1
Brown’s claim raises two separate questions: (a)
his Indian status and (b) whether the crime occurred
on the Muskogee (Creek) Reservation. These issues
require fact-finding. We therefore REMAND this
case to the District Court of McIntosh County, for an
evidentiary hearing to be held within sixty (60) days
from the date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
1 On June 7, 2019, we held Brown’s certiorari appeal in abeyance
pending the resolution of the litigation in Murphy. Following
the decision in McGirt, the State asked to file a response to
Brown’s jurisdictional claim. In light of the present order, there
is no need for a response from the State at this time and that
request is DENIED.

App.20a
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Brown’s presentation of
prima facie evidence as to his legal status as an
Indian and as to the location of the crime in Indian
Country, the burden shifts to the State to prove it
has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues:
First, the Brown’s status as an Indian. The District Court must determine whether (1) Brown has
some Indian blood, and (2) is recognized as an Indian
by a tribe or the federal government.2
Second, whether the crime occurred within the
boundaries of the Muskogee (Creek) Reservation. In
making this determination the District Court should
consider any evidence the parties provide, including
but not limited to treaties, statutes, maps, and/or
testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s find2 See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir.
2001). See generally Goforth v. State, 1982 OK CR 48 ¶ 6, 644 P.2d
114, 116.

App.21a
ings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Brown, within five (5) days
after the District Court has filed its findings of fact
and conclusions of law. Upon receipt thereof, the Clerk
of this Court shall promptly deliver a copy of that
record to the Attorney General. A supplemental brief,
addressing only those issues pertinent to the evidentiary hearing and limited to twenty (20) pages in
length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s findings of fact and conclusions of law and supplemental briefing shall occur
as set forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of Brown’s Brief-inChief and Application for Evidentiary Hearing on
Sixth Amendment Claim with this Order, to the District Court of McIntosh County.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 19th day of August, 2020.

App.22a
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice President Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge

